     OFFICE OF
INSPECTOR GENERAL



                            STATEMENT OF
                        DR. CHRISTINE C. BOESZ
                         INSPECTOR GENERAL
                    NATIONAL SCIENCE FOUNDATION
                               before the
                             U.S. SENATE
                   COMMITTEE ON APPROPRIATIONS
          SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                              May 15, 2002


       Madam Chair, Senator Bond, and distinguished members of the Subcommittee, I
am Dr. Christine Boesz, Inspector General at the National Science Foundation (NSF). I
appreciate the opportunity to appear before you today. As you know, NSF continues to
be an innovative agency dedicated to maintaining American leadership in the discovery
and development of new technologies across the frontiers of scientific and engineering
research and education. NSF has had an extraordinary impact on scientific and
engineering knowledge, laying the groundwork for technological advances that have
shaped our society and fostered the progress needed to secure the Nation's future.
Because the scientific enterprise and its underlying basic research are everchanging,
NSF continuously faces new challenges. Consequently, my office is working closely
with NSF management to identify and address issues that are important to the success
of the Agency. Today I would like to provide an update on the status of NSF’s progress
in three areas critical to its success: post-award management, workforce planning, and
large facilities management.



                           POST-AWARD MANAGEMENT

       NSF's primary mission is to fund extramural research and education activities
that will advance science and engineering. Over ninety-five percent of NSF’s FY 2002
budget is in support of these activities, which are funded primarily through grants and
cooperative agreements. The Agency’s scientific directorates and offices have a shared
responsibility with the Office of Budget, Finance, and Award Management to oversee
the financial and programmatic management of these awards. Because of its enormous




                                          1
impact on NSF’s daily operations, for the past two years I have identified award
administration as one of NSF's top ten management challenges. 1

       In addition, during the most recent annual audit of NSF’s financial statements,
our external auditors identified, as a reportable condition, weaknesses in NSF's internal
controls over the financial aspects of post-award management. 2

        The auditors found that, while NSF has a robust system of award management
over its pre-award and award phases, it needs to develop a more rigorous, risk-based
monitoring program for the post-award phase. In addition, NSF needs to significantly
improve its current policies and procedures for the valuation and tracking of its assets,
including facilities and equipment held and maintained by other entities.

       NSF management agrees that award administration is one of NSF’s top
management challenges, but disagrees that it should be classified as a reportable
condition for the purposes of financial statement reporting. Nevertheless, NSF is
working to continuously improve its business processes by refining its award
management procedures to include a more structured, risk-based monitoring element.
Further, NSF is taking steps to improve its oversight of assets for which it holds title.

       In support of these efforts, my office is currently conducting a review of best
practices in grant award administration to assist NSF in addressing this audit finding
and meeting its management challenge. We are looking at organizations in both the
public and private sectors that dispense and administer financial assistance awards,
and we plan to issue our report by the end of the year. In addition, we will continue to
assess NSF’s overall progress in developing a more effective post-award management
system.

                                    WORKFORCE PLANNING

        Despite an increasing workload and a budget that has grown from $1 billion to $5
billion over the past 20 years, the number of full-time equivalent positions (FTEs) at
NSF has remained relatively static. 3 In addition, NSF, like much of government, is


1
  Memorandum from Christine C. Boesz, Inspector General, National Science Foundation, to Eamon M.
Kelly, Chairman, National Science Board, and Rita R. Colwell, Director, National Science Foundation
(January 30, 2002) (on file with the National Science Foundation Office of Inspector General) [hereinafter
2001 Management Challenges]; Letter from Christine C. Boesz, Inspector General, National Science
Foundation, to Senator Fred Thompson, Chairman, Senate Committee on Governmental Affairs (Nov. 30,
2000) (on file with the National Science Foundation Office of Inspector General) [hereinafter 2000
Management Challenges].
2
  Auditor’s Report, Fiscal Year 2001 National Science Foundation Financial Statement Audit, (January
18, 2002).
3
 Compare NSF’s FY 1983 Budget Request to Congress with NSF’s FY 2001 Budget Request to
Congress. Between 1983 and 2001, FTEs increased by less than 2 percent, from 1200 to 1220.



                                                    2
vulnerable to a wave of retirements in key areas. Because of these concerns, I
identified workforce planning and training as another management challenge for NSF. 4

        The strategic management of human capital is a major component of the
President's Management Agenda 5 and has been identified by the Government
Accounting Office (GAO) as posing a significant risk government-wide. 6 Last year, this
Subcommittee requested that my office analyze the adequacy of the agency's staffing
and management plans in light of the efforts to expand NSF’s budget over the next five
years. 7 In response to that request, my office has performed a review of NSF's
workforce planning activities.

        NSF's workforce planning to date, like that of most Federal agencies, has largely
been confined to stating broad goals and standards. It falls short of an actionable plan,
which requires specific objectives, clearly assigned responsibilities, well-defined
milestones for discrete actions, and practical measures of effectiveness for
accountability. However, NSF is in the process of contracting for a multi-year business
analysis of its operations that will include a human capital management plan component
identifying its future workforce requirements. 8

       While it may be premature to attempt a meaningful assessment of future
workforce planning at NSF, due to the imminent launch of the Agency's ambitious
business analysis initiative, I can offer some preliminary conclusions. I believe that the
Agency’s proposed business analysis, if diligently conducted by the contractor and
properly overseen by NSF, represents a comprehensive and rigorous approach to
reviewing NSF's primary operations and the human resources needed to staff them. It
has the potential to generate an actionable plan that will help NSF identify and meet its
current and future workforce needs, as well as plan ways to head off future problems.
The ultimate value of the initiative, of course, will be determined by the validity of the
findings of the business analysis and the actions that NSF takes pursuant to them.
Given NSF's investment in time and resources, I look forward to substantial, concrete
results that will improve the agency's business processes, including workforce planning
and management.



4
    2001 Management Challenges and 2000 Management Challenges, supra note 1.
5
  EXECUTIVE OFFICE OF THE PRESIDENT OF THE UNITED STATES, THE PRESIDENT’S MANAGEMENT AGENDA:
FISCAL YEAR 2002 (Aug. 2001).
6
  High-Risk Series: An Update, GAO-01-263 (2001); Human Capital: Meeting the Government-wide
High-Risk Challenge, GAO-01-357T (2001).
7
    S. REP. NO. 107-43 (2001).
8
  NSF has issued a Request for Quotations for a multi-year business analysis of its operations, including
a comprehensive human capital management plan. NSF expects to award this contract, which is
estimated at $15 million over a three to four year period, next month. RFQ Number CPO 020027.



                                                    3
                          LARGE FACILITIES MANAGEMENT PLAN

      NSF’s management of large facility projects is another issue that I have identified
as one of the Agency’s top ten management challenges. 9 In response to the
President's Budget Blueprint, 10 increased scrutiny from the Office of Management and
Budget (OMB) and the Congress, and recommendations from my office, NSF
developed a Facilities Management and Oversight Plan (Plan) last fall. 11

       As part of its implementation, the Plan calls for significantly upgrading the current
procedures and guidelines for oversight and management of large facility projects. The
implementation has been slower than originally anticipated, and recruitment of a new
Deputy Director for Large Facility Projects is now expected to be completed this
summer. However, despite the delay, I am encouraged by recent progress. Last
month, members of the team charged with drafting the new guidelines and procedures
briefed my office on their progress, and I am pleased to see NSF is on track for full
implementation later this year.

     To assist NSF in carrying out this plan, we have identified additional ways that
NSF can enhance its policies and procedures to provide a more robust facilities
management system.

         During our audit of the Major Research Equipment (MRE) appropriation account,
which was requested by this Subcommittee, we found several areas that NSF needs to
address to continue improving its management and oversight for large projects and
facilities. My office issued a report responding to your request earlier this month. 12 We
found that questionable practices discovered during our audit of the Gemini project 13
have occurred in other MRE-funded projects as well. NSF's existing policies and
procedures have led the Agency to apply funding sources inconsistently among these
projects and fail to account for each project’s total cost.

      As a result of these findings, we have recommended that NSF revise its financial
management policies and procedures to ensure that it identifies the full cost of major
research equipment and facilities and improves its administration of MRE accounts.


9
     2001 Management Challenges and 2000 Management Challenges, supra note 1.
10
  EXECUTIVE OFFICE OF THE PRESIDENT OF THE UNITED STATES, A BLUEPRINT FOR NEW BEGINNINGS: A
RESPONSIBLE BUDGET FOR AMERICA'S PRIORITIES 161 (Feb. 2001).
11
  NATIONAL SCIENCE FOUNDATION, LARGE FACILITY PROJECTS MANAGEMENT & OVERSIGHT PLAN NSB-01-
153 (Sept. 2001).
12
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF FUNDING FOR MAJOR
RESEARCH EQUIPMENT AND FACILITIES, Report No. 02-2007 (May 1, 2002).
13
   OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION,   AUDIT OF THE FINANCIAL MANAGEMENT
OF THE GEMINI PROJECT, Report No. 01-2001 (Dec. 15, 2000).




                                                 4
NSF should be able to incorporate these improvements into its current efforts to
implement the large facilities Plan.

       Finally, the MRE account provides funding for two distinctly different types of
projects: those that invest in state-of-the-art, scientific tools for research and the
development of new knowledge and ideas; and those that support the investment in
mission critical property, plant, and equipment (PP&E) owned by NSF. The latter
provide the facilities and logistical means for a broad range of science endeavors,
primarily in NSF’s Polar Programs. Both types of projects require effective
management, i.e., planning, budgeting, construction oversight, and risk management, to
ensure that these multimillion-dollar projects proceed on schedule, stay within budget,
and perform as expected. Both also require full-cost accounting in accordance with
Federal accounting standards.

        But funding these types of projects from a single appropriation account creates a
situation where the replacement, renovation, and upkeep of assets critical to the safety
and health of researchers and their support personnel could potentially compete with
new scientific tools for limited funding. In updating its large facilities policies and
procedures, therefore, NSF should (1) plan and prioritize the mission critical PP&E
projects separately from the development and construction of research tools and (2)
distinguish their different funding sources, to avoid possible negative impact on the
broad range of programs these assets support. More specific accounting will reduce
confusion about how funds are being allocated, improve the accuracy of budget
planning, and allow more effective monitoring of the use of funds.

        I am pleased to see NSF addressing large facility management through the
development of this Plan. As the guidelines and procedures are fully developed and
implemented, my office will continue to assess this critical area and recommend further
enhancements where necessary. We share the same goal – efficient and effective
management of these large and complex projects – and I look forward to assisting NSF
in realizing this goal.

        Madam Chair, this concludes my statement. I would be happy to answer any
questions you or other members of the subcommittee may have, or to elaborate on any
of the issues that I have addressed today.


                              CONTACT INFORMATION

      For information about this statement, please contact Dr. Christine C. Boesz at
703-292-7100 or cboesz@nsf.gov.




                                            5
